In the

Supreme Court of the United States
No.
Petition for Writ of Certiorari
CERTIFICATE OF WORD COUNT COMPLIANCE
In Re: Anthony J. Lucero, Petitioner vs. Janies R. Koncilja; Koncilja &
Koncilja, P.C., Respondents.
Petitioner Antony J. Lucero, in compliance with Rule 33.2(h), does certify
that this document does comply with the word limits for filing a Petition for Writ of
Certiorari. The word count for the attached Petition - pursuant to Rule 33.2(d) excludes those sections referenced in the beginning of that paragraph, but does
include all other sections, as well as all footnotes.
Relying upon the word count of the computer, Petitioner certifies under
penalty of perjury that the total word count number shown is 5? 9 7%________ .
Respectfully submitted separately from the main booklet on this /3 ^dav
of January 2020.

Anthony u. Lucero, Petitioner Pro-se

Anthony J. Lucero
Petitioner Pro Se
2226 Harvey Place
Pueblo, CO 81006
Tel. (719) 543-7367
E-Mail anthonypuebl@aol.com

